<html>
<title> - WAIVING WORK REQUIREMENTS IN THE TANF PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                       WAIVING WORK REQUIREMENTS
                          IN THE TANF PROGRAM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2013

                               __________

                          Serial No. 113-HR02

                               __________

         Printed for the use of the Committee on Ways and Means




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-478                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                DAVID G. REICHERT, Washington, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
MIKE KELLY, Pennsylvania             JOHN LEWIS, Georgia
TIM GRIFFIN, Arkansas                JOSEPH CROWLEY, New York
JIM RENACCI, Ohio                    DANNY DAVIS, Illinois
TOM REED, New York
CHARLES W. BOUSTANY, JR., Louisiana


















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 28, 2013 announcing the hearing.............     2

                               WITNESSES

Panel One

The Honorable Orrin G. Hatch, a U.S. Senator from the State of 
  Utah, and Ranking Member, Senate Finance Committee.............     6

Panel Two

Kay E. Brown, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................    13
Jason A. Turner, Executive Director, Secretary's Innovation Group    25
Elizabeth Lower-Basch, Policy Coordinator and Senior Policy 
  Analyst, Center for Law and Social Policy......................    37
Douglas J. Besharov, Normand and Florence Brody Professor, School 
  of Public Policy, University of Maryland, and Senior Fellow, 
  The Atlantic Council...........................................    49

                       SUBMISSIONS FOR THE RECORD

All Families Deserve a Chance Coalition..........................    84
Goodwill Industries International................................    86
9to5.............................................................    91
Center for Fiscal Equity.........................................    92
Richard Franke...................................................    96
National Alliance to End Homelessness and The Arc................    97
Legal Momentum...................................................   103
Marylhurst University............................................   107

 
                       WAIVING WORK REQUIREMENTS
                          IN THE TANF PROGRAM

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2013

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 1100, Longworth House Office Building, Hon. Dave Reichert 
[Chairman of the Subcommittee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Thursday, February 21, 2013
No. HR-02

                 Chairman Reichert Announces Hearing on

                       Waiving Work Requirements

                          in the TANF Program

    Congressman Dave Reichert (R-WA), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on the proposed waiver of 
work requirements in the Temporary Assistance for Needy Families (TANF) 
program. The hearing will take place at 9:00 a.m. on Thursday, February 
28, 2013, in Room 1100 of the Longworth House Office Building.

      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts on welfare reform and individuals who 
will testify on the importance of work requirements in TANF and other 
social programs. However, any individual or organization not scheduled 
for an oral appearance may submit a written statement for consideration 
by the Committee and for inclusion in the printed record of the 
hearing.

      

BACKGROUND:

      
    Work requirements were a central feature of the landmark bipartisan 
1996 welfare reform law. The Temporary Assistance for Needy Families 
(TANF) program, created as a part of welfare reform, was designed to 
end the dependence of needy families on government benefits by 
promoting work, marriage, and personal responsibility. As a result of 
these reforms, States shifted from primarily providing monthly checks 
to recipients to instead providing benefits and services to help low-
income parents get jobs and become self-sufficient. After the 1996 
reforms, the Nation saw increased work and earnings for single mothers, 
a decrease in poverty among female-headed families with children, and 
record declines in welfare dependence.

      
    Since 1996, States have been required to meet statutory work 
requirements or face rising financial penalties. For example, States 
currently are generally expected to engage at least 50 percent of 
adults collecting TANF assistance checks in work or specified work-
related activities. Certain credits and exemptions apply toward this 50 
percent requirement, such as the credit for recent caseload declines 
and exemptions for disabled adults. Additionally, individuals counted 
as engaged in work must participate for a minimum number of hours in 
work or related activities each week.

      
    On July 12, 2012, the Department of Health and Human Services (HHS) 
issued an Information Memorandum in which they announced that the 
Secretary would begin allowing States to apply for a waiver of the TANF 
work requirements as part of a demonstration project related to the 
employment goals of the TANF program. No such waivers had previously 
been granted since the TANF program was created in 1996, nor had the 
Obama Administration indicated it was contemplating such a change. On 
September 20, 2012, the House of Representatives approved H.J. Res. 
118, a resolution disapproving of the HHS waiver memorandum by a 250 to 
164 vote.

      
    The TANF program is currently authorized through March 27, 2013.

    In announcing the hearing, Chairman Reichert stated, ``Americans 
consistently believe welfare should primarily serve as a bridge to self 
sufficiency, empowering able-bodied recipients with the tools to secure 
a job, lift oneself out of poverty, and provide for one's family. To 
meet these goals, work requirements have been the cornerstone of 
empowering welfare recipients within the TANF program since 1996--
successfully increasing earnings for single mothers, decreasing 
poverty, and setting record declines in government dependence. Now the 
Administration claims they can ignore the law and waive these work 
requirements. Congress was clear that it did not intend for HHS to have 
the authority to waive these work requirements, and no prior Secretary 
has claimed to have it. It is critical for us to review the damaging 
effects of waiving TANF work requirements, which could result in less 
work and earnings, and more poverty and government dependence.''
      

FOCUS OF THE HEARING:

      
    The hearing will review HHS' proposed waivers of TANF work 
requirements.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, https://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. Attach your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Thursday, March 14, 2013. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman REICHERT. Good morning. We will call the 
Subcommittee to order. Today's hearing is on the Obama 
Administration's July 2012 proposal to allow States to waive 
work and activity requirements for welfare recipients, often 
simply called welfare's work requirements. These work 
requirements originated in 1996 in the Welfare Reform Law, 
which passed on a bipartisan basis after literally years of 
debate.
    President Clinton campaigned in 1992 on a pledge to end 
welfare as we know it, and Republicans in Congress took that 
seriously. The landmark 1996 reforms expected welfare 
recipients to work or get education and training. The law also 
capped funding while providing States new flexibility, and it 
included time limits on benefits so welfare was no longer a way 
of life. The years following reform witnessed some of the 
greatest progress against poverty and dependence in our 
Nation's history. After reform, we saw sharp increases in work 
and earnings by single mothers, a 30-percent drop in poverty 
among female-headed families with children and record declines 
in welfare dependence with the TANF roles remaining 57 percent 
below pre-reform levels, even after the 2007 recession.
    The idea that welfare recipients should work for benefits 
remains extraordinarily popular: Eighty-three percent of 
Americans support requiring welfare recipients to work for 
their benefits. And that is why so many Americans were shocked 
last summer when the Obama Administration suggested States 
could apply to waive these work requirements for the first 
time. Current law, congressional intent, historical precedent, 
and expert reviews all confirmed HHS does not have the 
authority to do that. In November 1996, Ways and Means summary 
of the new reforms said it best: Waivers granted after the date 
of enactment may not override provisions of the TANF law that 
concern mandatory work requirements.
    The reason why Congress said work requirements couldn't be 
waived is simple: It wanted strong work requirements. And 
regardless of what the Administration suggests, simple logic 
confirms, States don't need waivers to strengthen work 
requirements; they only need them to weaken work requirements. 
The House acted in September to repeal the Administration's 
waiver policy. And, unfortunately, the Senate didn't follow 
suit. Today's hearing allows us to review this issue as we 
consider the next extension of TANF required before the end of 
March. I believe we should make clear that Congress meant what 
it said about welfare work requirements. What works is work and 
aggressively preparing for work. And the Administration can't 
unilaterally waive these critical features of our welfare 
reform. If anything, as we will hear from several witnesses, we 
should be exploring how to apply these work requirements to 
other programs so States help more welfare recipients work or 
prepare for work. That is the best and the only real path out 
of poverty.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    Mr. Doggett, I would recognize you for 5 minutes for your 
opening statement.
    Mr. DOGGETT. Thank you very much, Mr. Chairman.
    I believe in the value of work. I voted for the 1996 
welfare law because I supported moving people from welfare to 
work. I don't believe, though there have been some spotty 
successes, that that law has begun to fulfill its promise.
    And I think that the responsibility for those failures is 
shared by many: States who did not do their part; an 
Administration that has not come forward with its own plan; and 
Republicans here in Congress who have continued to build on 
old, flawed stereotypes. As this TANF reauthorization has been 
considered, we have moved on a stop-start basis with a number 
of temporary extensions, instead of dealing with the root 
causes of why we don't have more people moving into the 
workforce. We have done--we have dealt with such tangential 
issues as whether people were cashing their checks at a strip 
club, a liquor store, or a casino; not one of the core issues. 
I certainly didn't object to restricting checks from being 
cashed there. But it hardly addressed the core concerns of how 
we provide temporary assistance to those who are poor and how 
we use those resources to get them into jobs.
    Now, with yet another start-stop, we face a deadline at the 
end of this month without any real and basic reforms. The only 
focus has been on attempting to limit the Administration in 
giving States added flexibility. In my opinion, in some areas, 
they have too much flexibility already and have basically used 
TANF as a slush fund to fund some of the social services that 
they should have been providing themselves and were, in some 
cases, providing themselves to assist those who were poor to 
move into the workforce and to develop better skills. And 
whether they needed additional flexibility, there is a good 
argument that they should--but what we really should be doing 
is a broad reauthorization of this program, looking at whether 
it fulfills its original purpose and whether we can make it 
work better for the taxpayer and for those that it is designed 
to provide temporary assistance to.
    This temporary assistance program--misnamed, I believe--is 
increasingly irrelevant for most Americans that are struggling 
in poverty. In response to the worst recession in our 
lifetimes, enrollment in TANF grew little across the country. 
In 2010, 2011, only about one in five poor children received 
assistance through this program. That is the lowest level of 
poor children receiving cash assistance since 1964. In my home 
State of Texas, the picture is much more bleak, as it usually 
is, with roughly 1 out of every 20 children receiving any cash 
assistance from TANF.
    I think all of us want to see fewer people receive 
assistance because they found a good job. But there is no 
indication that these folks who are not receiving assistance 
found a good job, and no one should consider it a success when 
fewer and fewer very poor children and families have access to 
a program designed to serve them.
    Instead of focusing on whether a waiver authority is being 
misused or whether people are misusing their check at a liquor 
store, it seems to me the fundamental concern ought to be on 
how we do more to lift people out of poverty and have them 
contribute productively to our society. Part of this strategy 
should include the President's call for an increase in the 
minimum wage. Right now, a family of four with one full-time 
earner working for minimum wage is living in poverty, even 
after counting refundable tax credits. Increasing the minimum 
wage would give a pay raise to 15 million low-income workers, 
and it would increase the value of work for some of those 
leaving welfare. Increasing educational opportunities, 
including for our youngest children, is another strategy. And, 
of course, defending against those who have criticized it so 
regularly, the earned income tax credit is another proven way 
of helping to lift people out of poverty. And it is doing more 
to lift people out of poverty than the TANF program is.
    We also need to consider what changes should be made in 
TANF. I wish that had been the focus of this hearing and the 
focus of more attention from the Administration. We will hear 
from one witness later today outlining what some of those 
changes might be that could strengthen the program and make it 
fulfill its original purpose. Certainly that purpose will not 
be fulfilled if we see even more cuts with sequester beginning 
tomorrow, another area which we need to address the attention 
of the Congress.
    I look forward to hearing the witnesses.
    Chairman REICHERT. The gentleman's time has expired.
    Thank you.
    I want to remind our witnesses to limit their oral 
statements to 5 minutes. However, without objection, all of the 
written testimony will be made a part of the permanent record.
    On our first panel this morning, we will be hearing from 
Senator Orrin Hatch of Utah, who all of us know and all of us 
know has worked hard to lift people out of poverty. Senator 
Hatch is the Ranking Member of the Senate Finance Committee and 
has been very active with Chairman Camp on the issue of TANF 
waivers since the Administration announced its policy last 
July. As his written testimony notes, he has helped draft every 
major piece of legislation relating to welfare in the past two 
decades, including the 1996 Welfare Reform Law, whose work 
requirements are the focus of our discussion today. And during 
that time, he has worked on numerous bipartisan and even 
tripartisan welfare bills. We are honored to have the benefit 
of Senator Hatch's deep experience and expertise on this issue 
and greatly appreciate his willingness to testify.
    And as all of us recognize the busy schedules among Members 
and staff on the Hill, unfortunately Senator Hatch has to leave 
shortly after his testimony. So if there are any questions, 
they can be submitted to the Senator in writing.
    Senator Hatch, good morning. Thank you for being here.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
     OF UTAH, AND RANKING MEMBER, SENATE FINANCE COMMITTEE

    Senator HATCH. Thank you.
    Good morning, Mr. Chairman and Ranking Member Doggett, 
Members of the very important Subcommittee on Human Resources.
    I want to thank you for convening this hearing and for 
asking me to address all of you this morning on the Obama 
Administration's proposal to waive Federal welfare 
requirements.
    First of all, I want to congratulate you, Chairman 
Reichert, on your new role as Subcommittee Chairman. I have 
been very pleased to work closely with Chairman Camp on this 
important issue, and I look forward to continuing that 
partnership with you and with our friends on the other side.
    Your long and impressive history in law enforcement has 
brought you in direct contact with some of the vulnerable 
populations that programs under your Subcommittee's 
jurisdiction are designed to help.
    Your experience with these families will serve you well in 
your capacity as the new Chairman. While I commend the 
Subcommittee for holding this hearing, I regret that it is 
necessary to have such a hearing in the first place. Authority 
for the Temporary Assistance for Needy Families, or TANF, as we 
call it, and related programs expired at the end of fiscal year 
2010.
    In the years leading up to and following the expiration of 
TANF, the Obama Administration never proposed a 5-year 
reauthorization of these programs. In the 4 years since 
President Obama has been in office, not once did a Member of 
his Administration offer to meet with me to discuss the TANF 
reauthorization.
    Indeed, for years, the Obama Administration showed no 
interest in making improvements to these programs.
    That being the case, I was stunned on July 12, 2012, when, 
with no advance warning, the Administration released so-called 
guidance to States, informing them that the Administration had 
granted itself the authority to essentially, in my opinion, gut 
welfare reform by undermining important Welfare-to-Work 
requirements.
    Mr. Chairman, over the past 20 years, I have helped draft 
every major piece of Senate legislation relating to welfare. I 
was a Member of the Senate Finance Committee during the 1996 
debate and helped managed the Senate floor during the Senate 
consideration of welfare reform. In 2002, I worked with 
Senators Breaux, Snowe, Rockefeller, and Jeffords to put forth 
a series of recommendations known as the Tripartisan Agreement. 
The Tripartisan Agreement formed the basis of the TANF 
reauthorization legislation considered by the Senate Finance 
Committee.
    I also worked closely with then Chairman Grassley to 
develop the bipartisan PRIDE bill. So not only do I have a long 
history of developing welfare policies on a bipartisan basis, I 
have also been intimately involved in all the major 
deliberations on welfare policy.
    That being the case, I can say with confidence that at no 
time in the nearly 20 years of discussions did Members of 
Congress ever contemplate granting the executive branch the 
authority to waive Federal Welfare-to-Work requirements.
    Now, the Obama Administration has stated that they need to 
be able to waive the work requirements in order to ``explore 
new ways to strengthen work requirements.'' The Obama 
Administration has not elaborated on what is contemplated by 
the word ``strengthen.''
    However, we do know that these unknown new ways to strengthe
n work requirements do not mean limiting what counts as work to 
actual work or job searches. These new ways to strengthen work 
requirements do not mean actually requiring more people to 
work. That is because under current law, there are no 
restrictions on a State's ability to increase or strengthen the 
work requirements. A State does not need a waiver to limit the 
number of activities it considers work. A State does not need a 
waiver to increase the required hours of work for welfare 
recipients. A State does not need a waiver to increase the 
number of able-bodied adults who are working in exchange for 
their welfare check.
    So if strengthening the work requirements does not mean 
limiting what counts as work and it does not mean increasing 
the number of people engaged in work for longer hours, then 
what does it mean?
    For guidance in answering that question, we should consider 
what types of policy changes a State would need a waiver for if 
the Administration had the authority to provide such waivers in 
the first place. A State would need a waiver to increase the 
number of activities that could count as work. For example, 
adding education and substance abuse treatment to the list.
    Mr. Chairman, as you know, there are already 12 different 
definitions of work described in the TANF law, and some States 
have demonstrated considerable creativity under the flexibility 
that currently exists to count things like bedrest and personal 
journaling as work.
    In addition, a State would need a waiver to count toward 
the participation rate, a person performing less than the 
required number of hours of work per week. And a State would 
need a waiver to meet a performance measure other than the 
current requirement that the State engage at least 50 percent 
of able-bodied adults on welfare in work and related 
activities. In short, the approach envisioned by the Obama 
Administration would mean less work for fewer hours and for a 
smaller share of adults on welfare.
    This approach is contrary to a work-first approach that has 
been an integral feature of welfare reform. Over the years, 
research has consistently demonstrated that a work-first 
approach, combining an intense effort to engage clients in 
work-related activities to foster an attachment to the 
workforce, with a blended menu of work supports, such as 
education, and training, has the greatest degree of success in 
getting clients off of welfare.
    The reason I am so vehemently opposed to the 
Administration's scheme to undermine the Welfare-to-Work 
requirements is I believe it will hinder, not help, adults from 
exiting the welfare rolls. Put simply, allowing activities that 
are not work to count as work will not get people into work.
    Mr. Chairman, last year, I sent President Obama a letter 
asking him to withdraw his waiver rule and submit a TANF 
reauthorization to Congress. I pledged to the President I would 
work in good faith with him to craft bipartisan welfare 
legislation that can help fragile families progress toward 
greater self-sufficiency.
    To date, I have not received a response to my letter. The 
President has not withdrawn his welfare waiver rule, nor has he 
submitted a TANF reauthorization to Congress.
    Therefore, in my opinion, Congress must act. Congress must 
stop this executive overreach and prevent this Administration 
from undermining key provisions of welfare reform. I am hopeful 
that this hearing today will be the first step in a process 
that leads the House of Representatives to pass legislation to 
invalidate the Administration's welfare waiver rule. And I hope 
that the Senate will act in a similar fashion.
    I am counting on you. I am counting on a bipartisan effort 
to really keep this work requirement as a substantial and 
effective work requirement. And I will do whatever I can to 
make sure that that occurs.
    And I just want to thank you for holding this hearing. I 
respect each and every one of you. And I know these are tough 
issues. But I feel really deeply about this. And one reason 
TANF worked so well is because of the work requirement, and a 
lot of people found that going to work was a good thing. And 
what we need to do is find better ways of opening up the doors 
so they can work and get jobs they need. Thank you so much. It 
has been a privilege to be with you.
    [The prepared statement of Senator Hatch follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   

                                 <F-dash>
                                 
                                 
    Chairman REICHERT. Thank you, Senator, for your testimony.
    Thank you for helping us understand this issue a little bit 
better. We can tell that you are passionate about this and are 
willing to help us in any way you can. Your presence here today 
is absolutely a sign of that and your testimony, too, and your 
comments after. So we look forward to working with you. Thank 
you so much for being with us today.
    I will repeat to the Members of the panel here that if you 
have any questions for the Senator, you have the opportunity to 
submit those in writing.
    Thank you again, Senator.
    Senator HATCH. Thank you, sir.
    Good to see all of you again. Thank you for your kindness.
    Chairman REICHERT. Now will the next panel please take 
their seats. And we will begin the second panel of witnesses.
    Thank you for being here this morning. On our second panel 
this morning we will be hearing from Kay Brown, who is the 
Director of Education, Workforce, and Income Security, U.S. 
Government Accountability Office; Jason Turner, Executive 
Director, Secretary's Innovation Group; Elizabeth Lower-Basch, 
Policy Coordinator and Senior Policy Analyst, Center for Law 
and Social Policy; and Douglas Besharov, Normand and Florence 
Brody Professor, School of Public Policy, University of 
Maryland.
    Welcome.
    Ms. Brown, you can proceed with your testimony, please.
    You have 5 minutes. Thank you.

STATEMENT OF KAY E. BROWN, DIRECTOR, EDUCATION, WORKFORCE, AND 
     INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. BROWN. Chairman Reichert, Ranking Member Doggett, and 
Members of the Subcommittee, thank you for inviting me here 
today to discuss waivers of work provisions in the TANF 
program. I will talk about whether States express interest in 
these waivers and whether HHS granted any. My remarks are based 
primarily on a report we issued last September.
    As you know, one of TANF's key goals is to promote job 
preparation and work to help end dependence on government 
benefits. In fact, States are expected to ensure that a certain 
percentage of work-eligible families participate in work 
activities for a minimum number of hours each week, and these 
requirements are specified in law.
    Before TANF, under the Aid to Families With Dependent 
Children program, 46 States received approval from HHS to 
implement about 113 waivers between 1987 and 1996. These 
waivers were granted under Section 1115 of the Social Security 
Act and allow States to conduct pilot or demonstration projects 
to test the effect of changes to the existing program.
    Some of the waivers tested policies that became key 
features of the TANF program, such as stronger work 
requirements and, for the first time, time limits. When TANF 
replaced AFDC, States with ongoing waivers were permitted to 
continue to operate their programs under these waivers until 
they expired. The last one expired in 2007, and no provision in 
law allowed these AFDC waivers to be extended.
    Further, since TANF was created, HHS has not granted any 
waivers related to the program, although several States have 
expressed interest. Specifically, from 2000 through 2009, we 
found that five States asked HHS about the availability of 
waivers under TANF. For example, two States requested waivers 
because they thought that unanticipated circumstances, such as 
the September 11, 2001, terrorist attacks, might result in 
their noncompliance with certain Federal TANF requirements. In 
these cases, States generally were not asking for waivers to 
test new approaches through pilot or demonstration projects, 
which would be necessary in order to get a waiver under Section 
1115, and instead, were asking to be excused from specific 
requirements. HHS officials responded each time that they did 
not have authority to provide waivers and offered to work with 
the States to address their concerns through other 
flexibilities allowed under the law.
    Then, in 2001, in response to a Presidential memorandum, 
HHS asked the States for ideas of how increased administrative 
flexibility could lead to improved TANF outcomes. HHS documents 
show that five States indicated their interest in waivers that 
were specifically related to TANF work requirements. In their 
response, HHS officials indicated that the Department was in 
the process of reviewing its TANF waiver authority at that 
time. In July 2012, HHS issued the information memorandum 
indicating the Secretary's willingness to exercise Section 1150 
waiver authority related to TANF work requirements.
    I should clarify that we have not done an analysis of HHS' 
legal authority to grant these waivers. As of September 12th of 
last year, HHS documents showed that eight States had expressed 
interest in pursuing these waivers. We recently learned that 
two additional States have expressed interest. However, no 
State has formally submitted to HHS a request for a waiver. In 
conclusion, in contrast to the AFDC period before TANF, there 
have been no new waivers granted under TANF. And until last 
year, we found no formal documentation that HHS believed it had 
authority to waive the work requirements.
    This concludes my prepared statement. I am happy to answer 
any questions.
    [The prepared statement of Ms. Brown follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  


                                 <F-dash>
                                 
                                 
    Chairman REICHERT. Thank you, Ms. Brown.
    Mr. Turner, you are recognized for 5 minutes.

 STATEMENT OF JASON A. TURNER, EXECUTIVE DIRECTOR, SECRETARY'S 
                        INNOVATION GROUP

    Mr. TURNER. Thank you, Mr. Chairman.
    My name is Jason Turner. I am formerly Mayor Giuliani's 
Commissioner for Welfare, Medicaid, and WIA during his second 
term. Now I serve as the Executive Director of the Secretary's 
Innovation Group, a network composed of 18 States' human 
service secretaries, representing more than half the 
population. Our members hail from Wisconsin, Michigan, 
Pennsylvania, New Jersey, Virginia, South Carolina, Florida, 
Louisiana, Texas, Arizona, and six other States. We exchange 
State-innovative program ideas and support national policies 
which favor work and economic self-reliance, helping families 
budget discipline and orientation toward limited government.
    I would like to take this opportunity to describe the 
circumstances in the period leading up to the passage of the 
Temporary Assistance for Needy Families program and how it 
relates to the current discussion over work requirements in the 
law. During the 1980s, there was an increasing public concern 
over the growth of the TANF predecessor program, AFDC, which 
you are well familiar with. To address this concern, HHS 
sponsored a large-scale experiment in which some families 
received fairly generous, unrestricted cash benefits via a 
negative income tax and a control group did not, in order to 
see what the positive and negative effects were. This 
experiment showed that those receiving the unrestricted welfare 
benefits worked significantly fewer hours and experienced 
higher levels of family dissolution than those in the control 
group. In other words, free money without obligations resulted 
in bad social consequences, something our grandmothers may have 
remarked did not require an experiment to predict.
    Partly as a result of this large-scale experiment, the 
Congress passed the Family Support Act in 1988, an education 
and training program intended to move recipients to work, and 
based on the premise that welfare adults would qualify for jobs 
and accept them if they were provided additional education and 
training to improve their skill levels.
    Regrettably, experience showed that this new provision of 
education and training did not have this effect. In fact, the 
opposite occurred from what we had hoped. In the first 5 years 
after the program was activated, rather than declining, the 
caseload increased by one-third to its highest level ever.
    Faced with these disappointing results, HHS conducted a 
multi-State, multi-year comparison of the effectiveness of the 
education and training model embedded in its then Family 
Support Act program against a work-first intervention, 
otherwise known as a labor attachment model. Under the work-
first approach, welfare recipients are encouraged to get into 
the labor force as soon as they can find a job and improve 
their employment and wage circumstances from that point 
forward, in contrast to the skills model, where they remain 
outside the labor force while they undergo remedial education 
and training.
    The results unequivocally favored the work-first labor 
attachment model. The research concluded, employment-focused 
programs generally had larger effects on employment, earnings 
and welfare receipt than education-focused programs. And given 
the large number of programs examined in research and their 
variety of served populations, of implementation procedures and 
of different labor markets, these results provide more support 
for the advantages of employment-focused programs than 
education-focused ones.
    With all of these considerations in mind, the Congress 
spent a great deal of time evaluating alternatives as it 
crafted its 1996 legislation. The resulting program allocated 
funds to States with a substantial operating flexibility but 
with the understanding that States must place an increasing 
number of adult recipients into employment or work-related 
activities.
    Why didn't Congress just allocate funds via an unrestricted 
block grant? I can answer this from my perch at the time in the 
early 1990s as the HHS director of the AFDC welfare program and 
subsequently as a State welfare director in Wisconsin while all 
of this was happening. In general, States find it easy to run 
voluntary programs of remedial education and training, where 
slots are already available via community colleges or WIA and 
recipients could take advantage of these or not, as they wish. 
From a State's point of view, it is bureaucratically hard to 
run a mandatory program based on work activities. This is 
because a mandatory work program requires more supervision, 
more creation of qualifying activities, more attendance 
tracking, and more followup to assure progress is being made. 
But we know from experience the harder approach is necessary.
    Our member States in the Secretary's Innovation Group are 
not calling for the weakening of TANF work requirements, but 
the opposite. Our TANF policy brief lays out just such a policy 
agenda.
    Finally, as a former Federal executive branch official and 
former State welfare director, I tend naturally to favor 
executive branch authority and flexibility. But I also know 
that this impulse can be taken too far and lead some States to 
take the easy way out, when we know from robust experimentation 
and the results of the TANF program, that an ambitious work-
first program will lead to increased employment and decreased 
dependency. We think policies should be carefully considered by 
the Congress, not abandoned by executive fiat.
    [The prepared statement of Mr. Turner follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  

                                 <F-dash>
                                 
                                 
    Chairman REICHERT. Thank you, Mr. Turner.
    Ms. Lower-Basch.

  STATEMENT OF ELIZABETH LOWER-BASCH, POLICY COORDINATOR AND 
    SENIOR POLICY ANALYST, CENTER FOR LAW AND SOCIAL POLICY

    Ms. LOWER-BASCH. Mr. Chairman, Members of the Committee, 
thank you for the opportunity to share CLASP's views regarding 
the work rates that States must meet under the TANF program. 
CLASP develops and advocates for policies at the Federal, 
State, and local levels that improve the lives of low-income 
people.
    In calling this hearing, Mr. Chairman, you said that 
welfare should empower able-bodied recipients with the tools to 
secure a job, lift oneself out of poverty, and provide for 
one's family. I agree. Stable employment in a well-paying job 
is the best pathway out of poverty and into the middle class. 
Employment is one of the key ways that people contribute to 
society.
    Where we may disagree, however, is whether the work 
participation rate under TANF is an effective way of promoting 
this goal. I do not believe that it is. The work participation 
rate only measures attendance. It does not make any attempt to 
measure the effectiveness of State's employment programs, 
whether these programs actually get people jobs. It forces 
States and caseworkers to focus on documentation rather than 
helping clients and unnecessarily limits range of activities 
that can be counted.
    In an economy where family-supporting jobs are increasingly 
limited to those with at least a post-secondary credential, 
those without at least a high school diploma find it harder and 
harder to find any employment. Low-income parents need access 
to training that will allow them to escape the cycle of low 
wages, unstable work, and poverty.
    Many States have particularly highlighted as a problem the 
limits on counting basic education and GED classes toward the 
work rates. States have learned much about work-focused 
education in the decades since such programs were last 
evaluated, and we are also in a very different economic 
context.
    While the labor force participation of low-income mothers 
did increase dramatically during the early 1990s, this was not 
primarily due to the TANF work participation rate. Rather, I 
would credit the combination of the strong economy, the 
messaging effect of welfare reform, and the package of 
improvements that made work pay for low-income mothers. These 
included a rising minimum wage, an expansion of the earned 
income tax credit, child care subsidies, and public health 
insurance.
    States would almost certainly continue to enforce a work 
expectation even in the absence of Federal requirements. 
Moreover, the vast majority of low-income parents themselves 
value work and want to support themselves and their families. 
They do not need more work requirements but rather work 
opportunities and employment support.
    Looking to TANF reauthorization, we should start tracking 
at the State level performance on a wide range of outcome 
measuring, including employment, poverty, deep poverty, and 
other measures of material hardship. TANF should not be 
considered a success while millions of children are being left 
in deep poverty.
    States that are willing to be held accountable for the 
outcomes they achieve in their programs, such as employment 
entry, job retention, or poverty reduction, should be given the 
ability to opt out of the process-focused participation rate, 
either for the entire TANF population or for groups 
participating in specific programs, such as career pathways 
initiatives, in exchange for rigorous evaluation of these 
efforts. Whether such a flexibility is provided through waivers 
or through a new State option allowed under reauthorization, 
such experiments would help identify the most effective service 
models in the current environment. These pilots would also help 
to identify possibilities and pitfalls, moving more broadly 
from process measures to outcome-based performance measures.
    In my written testimony, I do discuss some modest changes 
to the work participation rate that can significantly reduce 
the negative effect as it is currently designed. Foremost among 
these is the replacement of the caseload deduction credit with 
employment credit. I also discuss funding and the value of 
creating a permanent source of support for subsidized 
employment programs. These received bipartisan support at the 
State level when they were funded with the TANF emergency fund. 
I really think we should build on that experience.
    I appreciate the opportunity to provide CLASP's 
perspective. 
I know welfare has often been a subject of deep disagreements. 
But I do believe it is possible to find common ground in 
improving the effectiveness of TANF in promoting work 
opportunity for low-income parents.
    [The prepared statement of Ms. Lower-Basch follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     

                                 <F-dash>
                                 
                                 
                                 
                                 
    Chairman REICHERT. Thank you for your testimony.
    Mr. Besharov.

 STATEMENT OF DOUGLAS J. BESHAROV, NORMAND AND FLORENCE BRODY 
PROFESSOR, SCHOOL OF PUBLIC POLICY, UNIVERSITY OF MARYLAND, AND 
              SENIOR FELLOW, THE ATLANTIC COUNCIL

    Mr. BESHAROV. Chairman Reichert, Ranking Member Doggett, 
other Members of the Subcommittee, it is good to see you again.
    What a time we are in. I appreciated the comments of the 
other panelists and Senator Hatch. My view is that this 
waiver--and I don't know anything about its legal basis, I know 
it wasn't intended when the bill was written by anyone on 
either side--my sense is that this waiver both goes too far and 
doesn't go far enough. And let me explain what I mean by that.
    It goes too far because there was one lesson we learned 
very clearly through the lead-up to welfare reform, and this is 
something that Jason Turner and Senator Hatch talked about: The 
evidence was really clear. The best way, as the Europeans say, 
to activate welfare recipients, was to do work first, meaning 
to encourage them to look for a job, and help them look for a 
job. And job training had to be second or third at best.
    I think that is right. I think the evidence from Europe, 
which I will talk about in a minute, is similar. But it is 
reinforced by the evidence in this country.
    Next week, the House will take up WIA, the Workforce 
Investment Act. The sad truth is the evaluations of that 
program show that it is hardly effective for the low-income 
families it is meant to serve. So that is why I say this waiver 
goes too far. It seems to abandon work first, and it seems to 
put too much reliance on a failed policy, which is our current 
job training program.
    But it also doesn't go far enough. And what I mean by that 
is we use the phrase, both sides use the phrase, flexibility, 
coordination, trying new things. But the new thing, the big 
thing, the needed waiver, the needed coordination is between 
TANF, which has now become something like a block grant, and a 
small one at that, and SNAP, UI, and the disability program. 
SNAP, UI, and disability now far, far outweigh what we spend on 
TANF. They provide an alternate route for government support. 
And each one of them separately has a minimum of Welfare-to-
Work, work experience, job-first provisions.
    A true waiver for flexibility would do something about all 
those programs. Now, I think I am here partly because, at the 
University of Maryland, I study programs in socialist Europe. 
And that includes now France and Italy, as well as Germany, the 
Netherlands and the Nordic countries. And they are all moving 
to the kind of combined work-first program that I am talking 
about.
    If you look for a moment, I think you have a full-size 
picture of Figure 1. And this is part of the conversation we 
are having about the broader U.S. economy. And I don't for a 
moment want to say that it is only welfare or only disability 
that causes what is a striking decline in the labor force 
participation--excuse me, in the employment rate of America.
    But if you look at this, the United States is in red, and 
you see a sharp decline at the time of the recession. While the 
Germans were increasing, the Dutch have held constant; the 
French are doing things to try to improve their labor force 
participation. What are most of these countries in Europe, 
whether led by conservative or socialist countries, doing? They 
are combining their recipient programs, the equivalent of 
disability, the equivalent of SNAP, the equivalent of 
unemployment insurance, into one program. They are housing 
those programs in the same office.
    When someone applies for any one of those programs, those 
people are treated the same. The agency looks to see what the 
barriers are to employment and through a combination of work-
first and other assists tries to help those people go to work.
    That is why I say this waiver both goes too far and not 
nearly far enough. It goes too far because I think it 
undermines the original finding that led the Congress to pass 
TANF, which is that work-first works.
    And, secondly, it doesn't go nearly far enough because this 
Administration, although it has said it supports broad waivers 
across programs, didn't use this opportunity to allow the 
States to combine their SNAP programs and their UI programs. 
And SNAP, at least, I know there is legislative authority they 
could have done.
    Thank you very much.
    [The prepared statement of Mr. Besharov follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     

                                 <F-dash>
                                 
    Chairman REICHERT. Thank you all for your testimony. We 
will now move into the question phase. I will ask Mr. Turner a 
question. But I noted a few comments by the panel that sort of 
struck a personal note with me. Mr. Turner's comment about free 
money without obligations results in bad social consequences; 
Ms. Lower-Basch, what activities are actually effective in 
helping people get jobs; and then Mr. Besharov, help people 
look for a job and the training could be second or third in the 
process.
    And it just sort of reminded me of my childhood. I am the 
oldest of seven children. And my father had trouble a few times 
in his life finding work, especially when we moved from 
Minnesota to Washington State in the 1950s. We were on--I think 
they just called it State assistance back in those days or 
public assistance, or something like that and stood in a food 
bank line, which wasn't really a food bank back then; it was a 
place that you went to, one place in Seattle, where they gave 
you bags of, you know, paper bags of bulgur wheat and flour; 
the staples. And I remember my father really struggling with 
being on public assistance. His self-esteem was erased. There 
was no pride there. There was domestic violence happening at 
home, it created a lot of stress.
    I don't know what happened. But eventually what he did is 
he turned to an activity, and the activity was he would walk--I 
know, you hear these stories all the time, ``I walked 4 miles 
to school in the deep snow.'' So this is the story my father 
and my mother told me, that he walked to work, to a place where 
he thought he might get a job, and sat on the curb with his 
lunchbox for 2 to 3 weeks and asked the guard at the guard 
shack, ``Do you know if there are any openings?'' The activity 
was him walking to the place where he wanted to go to work, 
sitting down on the curb with his lunch bucket, and waiting. 
Eventually, somebody came out and said, ``We know you are out 
here wanting to work. We will hire you.'' And he got a job.
    And so was that an activity that led to employment? It is 
hard to define, isn't it?
    I think the training then, of course, came second. He got 
the job and went in and became a steelworker, where they built 
railroad cars back then. Now it is Kenworth Trucking in 
Seattle.
    But I am sure a lot of people in this room and on this 
panel or their family members can identify with those things 
throughout their lives. So we really want to try to fix this. 
We want to make sure that we get people back to work. And that 
is the challenge here.
    Mr. Turner, today we have been discussing work requirements 
in the TANF program. Your testimony has provided a good summary 
of how Congress arrived at the current structure of work 
requirements in the TANF program. But TANF is only one program 
among many that are intended to help low-income families. Do 
other similar programs that provide help to low-income families 
have anything comparable to the TANF work requirements? If not, 
should these programs have activity requirements more like 
those in TANF?
    I think, Mr. Besharov, you sort of touched on that a little 
bit.
    Mr. Turner, comment, and then maybe Mr. Besharov could 
speak to it.
    Mr. TURNER. Thank you, Mr. Chairman.
    I will leave it to Mr. Besharov to comment on the specific 
programs.
    But let me just say in response to that that work 
activation or work activity, even where private employment is 
not available immediately, has tremendous benefits to anybody 
in any circumstance receiving assistance. The benefits to 
staying active, such as you described in your family history, 
are immense. We know, for instance, that those who are engaged 
in a work activity may benefit by keeping active, by keeping 
social with other people, by making connections with 
prospective employers or other people that can help them find 
employment. We know that they stay healthier. We know that if 
you are not active, you tend to become isolated, and you stay 
at home. We know that your health declines. Depression 
increases. Isolation sets in. Substance abuse goes up. So the 
longer you are inactive, after having been employed, the more 
your prospects decline over time.
    And so one of the things that work activation does, if you 
think of this as being a whole population of low-income people 
that are being served on welfare, a subset of that can be 
employed in the economy. And like an accordion, it goes up and 
down. The private economy takes more people and then takes less 
people. But you want to keep the entire population activated 
and doing something so that they are on the bench, ready to get 
off and go back into the football game.
    So, in a sense, work activation is a program idea for all 
seasons, whether it is--whether the economy is strong or weak.
    Mr. BESHAROV. Thank you.
    Let me take SNAP, food stamps, as an example. It is a very 
large program now. Tomorrow, I am going to be speaking on a 
panel at the USDA on this question of how to activate food 
stamp recipients. An issue is that many of them, about 30 
percent of all SNAP households, have earnings. But there is a 
substantial number of people who receive food stamps who aren't 
working. And the question, the challenge for the Congress is to 
make a distinction between those groups and find a way for the 
nonworking recipients to be activated, to use the European 
term.
    And I really want to emphasize that even at this time of 
high unemployment, work first, job search works. The Europeans 
have done studies because they have higher unemployment rates 
than we do. And the reason I asked an economist about this, 
what is the fancy word, is because I am going to testify. And 
it is variance from the mean. That is a fancy way of saying 
that while some counties today have unemployment rates of 25 
percent, other counties, other localities have unemployment 
rates of 5 percent. Some places have no jobs for aerospace 
engineers but loads of jobs, entry-level jobs. So we can't even 
use the unemployment rate as a reason for not encouraging work 
first. We just have to apply it in a reasonable and confident 
way.
    I think that the TANF rules, as they were, tended to do 
that. We saw very few examples of people saying TANF has been 
unfair or the State agencies have been unfair during the 
recession. And I think that speaks well of the system that the 
Congress adopted now almost 20 years ago.
    Chairman REICHERT. Thank you for your response.
    Mr. Doggett, you are recognized for questioning.
    Mr. DOGGETT. Thank you very much.
    Ms. Lower-Basch, let me ask you a very hypothetical 
question. Let's suppose that we lived in a world in which a 
significant number of Members of Congress did not feel there 
was political advantage in building on old stereotypes of 
welfare Cadillacs, of members of our society devoting their 
days to using taxpayer money at liquor stores and strip clubs, 
of numbers of Americans who desired to just live on the dole 
instead of to work, and that instead of building on those 
stereotypes there was a genuine, broadbased, bipartisan 
interest in Congress to lift people out of poverty. And let's 
suppose we lived in a hypothetical world where an 
Administration was not afraid of being stereotyped itself and 
provided some bold leadership with the TANF law coming up for 
reauthorization to make recommendations about how we might get 
people out of poverty and that this law and this 
reauthorization could play at least a limited measure in doing 
that. What would you see in that hypothetical world as the key 
elements that we need to have in a law focused on lifting 
people out of poverty, reducing the underclass in this society?
    Ms. LOWER-BASCH. Thank you. That is a big question. And, 
obviously, TANF by itself is not going to lift everyone out of 
poverty. Clearly, the other programs that Mr. Besharov 
mentioned are very important. The minimum wage, and the labor 
market as a whole. So, obviously, TANF is only going to be a 
piece. Within TANF, I do think it is engaging people in work 
activities, to the extent that they are able. I do think it is 
recognizing that some people are going to need to take the more 
indirect path, that, you know, if people are in the middle of 
being homeless, if their kids are about to go into foster care, 
that they need to focus on getting housing or resolving the 
problems that are putting them in crisis. If they are--do have 
mental health or substance abuse issues, they might get a job, 
but they are going to get fired from it, you know, if they are 
really in trouble. So they need to resolve those issues and 
then move to work.
    At a Federal level, I do believe in providing flexibility 
to States in return for real accountability on their 
accomplishments; as I said, I think funding subsidized 
employment is--that is clearly, when the public, private sector 
jobs are not available, a great way to give people real work 
experience, real connections to the work. And it also helps the 
employers. We know a lot of small businesses benefited from 
that during the recession.
    Mr. DOGGETT. Some of the testimony has indicated that the 
job training and educational opportunities really don't 
accomplish very much. And it does appear that some of these job 
training programs have not been very successful.
    What is your assessment of the role in any reform we have 
of the outcomes we should require concerning education and job 
training programs.
    Ms. LOWER-BASCH. Right. So let me start with the jobs 
evaluation, which is the study that did drive a lot of this 
belief that education doesn't work. And those programs clearly 
were not very effective. People were in very low-intensity 
programs. They didn't get anywhere. We know now you need to 
have credentials that have value in the labor market. You need 
to be much more connected to what employers say they need and 
not just more classroom-based. We have learned a lot in the 
past 20 years. The economy has also, frankly, changed. The 
unemployment rate for people without a high school diploma is 
twice what it is for anyone else. And employers are 
increasingly unwilling to just hire the folks like your dad, 
who have a great attitude but don't have any of the skills. 
They want people ready to show up and do the job on the first 
day. So we need to give people access to that training.
    Mr. DOGGETT. We have already let one program, the 
supplemental grants under TANF, expire. That was a benefit in 
Texas and a total of 17 States. What is the effect of losing 
that supplemental program and how should it be a factor in 
looking at further revisions or reauthorization of TANF.
    Ms. LOWER-BASCH. Right. So, overall, the value of the TANF 
block grant has been fixed in nominal dollars since it was 
created in 1996. So it has lost about 30 percent of its value. 
In the 17 States that got supplemental grants, obviously, the 
cut has been even greater.
    As we know, States do a lot of different things with their 
TANF block grants. So, in some cases, it is hard to pick 
specific things. But we know, in recent years, States have been 
cutting actually their Welfare-to-Work contracts; in many 
cases, providing less services. In many cases, child care has 
gotten cut back, which means that in some States, people are 
back to this crazy Catch-22, where you have to go on welfare in 
order to get a child care subsidy because the waiting list for 
child care for working poor is so long. All of these things 
happen when funding gets squeezed over time.
    Mr. DOGGETT. I thank you and all the witnesses, Mr. 
Chairman.
    Chairman REICHERT. Thank you, Mr. Doggett.
    Mr. Kelly, you are recognized for 5 minutes.
    Mr. KELLY. Thank you, Mr. Chairman.
    Mr. Turner, I was really interested in your testimony. One 
of the things is the dissolution of the family. When I looked 
at the title of this, the Temporary Assistance for Needy 
Families, the key to that being temporary, again, being a 
bridge from one point to another. And when we look at all these 
programs, we look at what the intentions were and then how far 
we get away from some of those things.
    But in your testimony, you talk--I think it is on page 1, 
about the dissolution of families. If you could just address 
that a little bit. Because I think the concern is--and coming 
from the private sector, I never, ever, in my lifetime ever 
regretted investing one penny in any type of a program that 
would train the people that worked for me in our dealership to 
get from where they were to where they could go, depending on 
their potential. But the key was we already had jobs for them. 
We had a market waiting for them. We had a way for them to rise 
from where they were.
    I just look at some of these programs and I think, Ms. 
Lower-Basch, you just made a statement, we are so far away from 
what we intended originally.
    Thanks for the variance in means. That is great.
    And I have only been here 2 years. But the idea was a great 
idea. But we want it to be a bridge from where you are to where 
you want to be and where you can be and where you should be.
    So, Mr. Turner, talk about this dissolution of family. 
Because I see in our culture right now, in our society, the 
basic family structure being broken down for many different 
reasons. A lot of it has to do with the economy. But you have 
to be able to take care of your own. You have to be able to 
take care of yourself. And you have to be able to dream that 
you can actually rise from where you started to wherever you 
want to go.
    This is troubling, is it not?
    Mr. TURNER. Yes, I think you are right. Absolutely, it is 
troubling. And the family is the original income transfer 
program, if you will, meaning, fathers, mothers, and children 
all transfer support to each other within the family unit. And 
once the family unit is dissolved, and fathers and mothers go 
their separate ways, it is very difficult for government to 
substitute as a parent or as an income source for the family.
    What they found out in this experiment is that over time, 
in 3 to 5 years of samples, both blacks and whites, and to a 
lesser extent Chicanos, had marital dissolution effects that 
were significant.
    We don't know precisely how that works. But we think that 
when there is an income that comes in that is not connected to 
the father or the mother's active employment and bringing money 
into the family, that the two parties tend to separate both 
psychologically and have different sources of income and, 
because they have an alternative source of income, tend to stop 
working and family breakup occurs.
    Mr. KELLY. When you expand that and you look at different 
programs that are available, really it is that ability to stay 
together as a family to get through the hard times that makes 
it very, very real then that as you go forward, as a child, if 
you see your parents working that way and you know they depend 
on each other for the general good of the whole family, then it 
works.
    I have noticed, at least in my lifetime--I don't have data 
to support this, this is just what I have noticed--I have 
noticed that those folks who really have that strong family 
bond, that nuclear family, tend to be able to get through hard 
times really well and then tend to duplicate those same 
experiences as they get older.
    So I know these programs are all necessary. And I think 
that we want to make sure that they are reaching the goal that 
we intend for them.
    So I want to thank you all for being here today. It is so 
important that we hear from you and that we continue this open 
dialogue to find out what we can do to really help our fellow 
citizens who need our help right now, but make sure that at the 
end, the end result actually gets to where we want it to be and 
we don't create some type of a model that leads to a further 
dissolution of the family and a further separation of those 
roles I think we consider so basic in our society.
    I thank you.
    And I thank you, Mr. Chairman.
    Chairman REICHERT. Thank you, Mr. Kelly.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. DAVIS. Thank you very much, Mr. Chairman.
    And I, too, want to thank our witnesses for being here and 
for their testimony.
    You know, as I listened to the discussion and as I thought 
about it prior to coming, Ms. Brown, am I correct when I recall 
that you indicated that since the creation of TANF, there have 
been very few requests for waivers from States?
    Ms. BROWN. That is correct.
    Mr. DAVIS. Do you have any idea why there may not have been 
any?
    Ms. BROWN. Well, we have been talking about this. And I 
think one of the things to bear in mind is that in the early 
years after TANF was created, you know, States did have a great 
deal of flexibility, and they were experimenting in designing 
their own programs. And as time went on, the requirements for 
meeting their work participation rate and the constraints that 
States faced in meeting those work participation rates may have 
at that point increased some of the interest that we saw in 
more recent years asking for waivers. But beyond that, we know 
what was requested and we know what HHS said, but we have not 
done a lot of work on the reasons behind that.
    Mr. DAVIS. And you have not had to do a lot of work on 
trying to determine whether you would or would not grant a 
waiver. If nobody is asking, then you don't really have to deal 
a great deal with that. Right?
    Ms. BROWN. I see your point. Yes.
    Mr. DAVIS. Ms. Basch, let me ask you, the Director of the 
Congressional Budget Office testified last week that the budget 
cuts in the sequester, which begins tomorrow, would reduce 
employment by 750,000 jobs by the end of the year.
    How do you think this might affect or impact our efforts to 
take people from welfare and put them to work?
    Ms. LOWER-BASCH. Obviously, as, you know--a few of the job 
losses from the sequester may directly impact low-income 
parents. Both--you know, some of them may work as school aids 
or something like that, that would be affected. But it is more 
likely that low-income people will feel the indirect effects of 
the overall economy and reduced job growth and reduced jobs. 
So, yes, it will make it harder for people to find work. Many 
low-income families will obviously be affected by the direct 
spending cuts, things like Head Start and WIC as well.
    Mr. DAVIS. You know, I feel that there is a tremendous 
amount of myth that is projected, percolated about the 
willingness of people and the desire of individuals to work. I 
have lived in low-income communities all of my life, from the 
time I was born until even today. And many of those individuals 
had some difficulty. I was intrigued by the Chairman's story 
relative to his childhood because my family had pretty much the 
same experience. I can recall my father saying that he would 
rather drink muddy wine than stand in a line to get some food 
and sleep in a hollow log. I mean, that was his expression.
    And so this notion somehow that there are these vast 
numbers of people who want to live off public help, I think is 
more myth than reality.
    Are you aware of, Ms. Basch, programs that really help 
facilitate the entre of individuals into the workforce, and 
what are some of those?
    Chairman REICHERT. Could you make your answer short? Time 
has expired. Go ahead.
    Ms. LOWER-BASCH. I just want to say that, you know, we do 
think it requires both pieces; it requires the skills for the 
jobs but also the actual connection to the employers who are 
hiring. We know successful programs don't just train people up 
and then send them out in the world. They really make those 
direct connections from employers and, in some cases, give them 
the opportunity to demonstrate their work skills.
    Mr. DAVIS. Thank you, Mr. Chairman.
    Chairman REICHERT. Thank you, Mr. Davis.
    Mr. Renacci, you are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman.
    I want to thank all the witnesses for being here today.
    You know, there was some discussion about labor and my 
colleague was talking about sequestration, maybe the loss of 
jobs. But, Mr. Besharov, we talked about in your testimony how 
a number of European countries have incorporated activity or 
Welfare-to-Work provisions into their social programs. Many of 
those countries have done so while dealing with high 
unemployment and other difficult labor market conditions. Based 
on your research in the area, what do you say or what have 
those European countries said to those who argue Welfare-to-
Work policies cannot be effectively implemented or should be 
suspended during time of high unemployment?
    Mr. BESHAROV. Well, that is the crucial question here. And 
I think the answer depends on the political system or the 
political party in charge in each country. There has been a 
real pushback in Germany and somewhat of a pushback in some of 
the Nordic countries. But in the countries run by liberal or 
socialist governments, such as France, there has been no 
pushback. Here is the argument: They look at that chart which I 
showed you, Figure 1, and they see something between 60 and 70 
percent of the people who are eligible to work in the right age 
category working, but 30, 35 percent not working. And they see 
that number growing. And they don't think that they have a 
future, economically, when the number is decreasing, when there 
are fewer people working.
    And so they take a deep breath and they say, we have to 
push as many people as possible into looking for work. When 
they do that, two things happen: Number one, people who 
otherwise were disenchanted or discouraged about finding work, 
some of them find work. And the other part that happens is 
because there are people looking for jobs, and there is a push 
and pull about this, because there is more supply of workers, 
especially low-income workers, employers are more likely to 
expand and hire people.
    Now, this isn't a magic potion. And we are not going to 
eradicate unemployment. But we do have to use every means at 
our disposal to get the United States back in fighting shape. 
And this is one of the ways. One of the ways is to encourage 
everyone who is of the age to work and healthy enough to work 
to look for work.
    Mr. RENACCI. Thank you.
    Mr. Turner, Congress has spent years designing, reviewing, 
and modifying work requirements in TANF programs. And it is for 
that reason I strongly believe that any changes to requirements 
should be first handled by Congress through legislation. But I 
would ask, if this waiver is allowed to move forward, is it 
possible that States could maybe even want to go further with 
waiver programs like this?
    Mr. TURNER. Well, what we know from good work programs is 
that even if there--even if somebody is not on unemployment, if 
he is engaged in a work activity that is creating something of 
value, it is a value to a recipient himself. For instance, in 
New York City, welfare recipients engaged in work in parks 
throughout the city, which has increased their level of 
cleanliness from 85 percent to 95 percent. So why is that 
important? Because those people going into the parks are 
learning important lessons about work habits, reliability, 
staying on the job, taking direction from supervisors. These 
are the things that employers say are most missing among the 
low-income population; work habits, as opposed to work skills. 
Okay.
    So to answer your question, from that point of view, I 
think that once you get away from a program which offers an 
opportunity to actually provide work in a work-like setting and 
you do things like bedrest or staying in a remedial class, you 
are losing the opportunity to do what we call work hardening or 
getting organized around the idea that to take a job, you have 
to be prepared to keep the job, to stay on the job, and to get 
along with people. That is the main thing that you can learn 
outside of the labor force in a workforce setting.
    Mr. RENACCI. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman REICHERT. Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman, for holding 
this hearing.
    I want to thank all of the witnesses for being here today. 
Today the House is considering a bill to reauthorize the 
Violence Against Women Act, one of the most important life-
changing bills Congress ever created. I don't know how many of 
you know that TANF is an important part of the puzzle in 
helping survivors of domestic violence get back on their feet. 
A Huffington Post article broke down the challenges facing poor 
parents in the State of Georgia, my State, and deterring 
applicants. In fact, the Georgia Coalition Against Domestic 
Violence gave up helping women apply for TANF benefits.
    Mr. Chairman, I ask unanimous consent to submit the full 
article for the record.
    Chairman REICHERT. Without objection.
    [The submission of The Honorable John Lewis follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   

                                 <F-dash>
                                 
                                 
                                 
                                 
                                 
    Mr. LEWIS. Now, I happen to believe that poverty is a 
radical evil in our society. At one time, when we had full 
employment, unemployment was down to 4 percent, right? And we 
said we had full employment. There were still hundreds and 
thousands and millions of poor people. And we had the war on 
poverty. We had all these groups. Can any member of this panel 
suggest or tell me what should we do as a society, as a Nation, 
to maybe have a radical good, to abolish poverty from this 
land?
    It is shameful, it is a disgrace. When you travel through 
America, in spite of all of the resources, there are still so 
many people left behind. You are right: They are black. They 
are white. They are Latino. They are Asian American. They are 
Native American. I travel and I have seen this country. If we 
had all the resources, if we had millions and billions of 
dollars, if we end the wars, stop spending so much money on 
bombs and missiles and guns and take care of our people here at 
home, what would you suggest that we do? What proposal? What 
plan?
    Ms. LOWER-BASCH. As I said, you know, I think it is going 
to be a multi-tiered thing. One problem is there are an awful 
lot of people who are working, in many cases full time, year 
round, and they are still poor. Because we have an economy that 
has a lot of low-wage jobs. So there is a piece about both, you 
know, improving the labor market and providing supports for 
workers. There is a piece about, you know, people who have 
disabilities that really do prevent them from working. There 
are lots of different--there is no magic bullet. It is going to 
be 30 bullets, you know--I hate to use that metaphor. Let me 
not.
    But it is going to be a lot of different pieces to the 
puzzle to put together. TANF is one of the pieces, and it has 
been a broken link. Let's take your example of Georgia. Georgia 
used to pay TANF caseworkers to go to domestic violence 
shelters to help women apply for cash assistance. They stopped 
doing that because they decided they did not want to make it 
easy for people to get cash assistance. You know, you don't 
want people to break up marriages when they are good marriages. 
But when there is a domestic violence situation, you want TANF 
to be that lifeline. And it is not always there. So, yes, it 
has been a broken piece in the puzzle.
    Mr. BESHAROV. I am struck, Mr. Lewis, by the point you made 
and the point Mr. Kelly made. Because they are actually two 
parts of the same problem, which is the weakness of the family.
    I was at a job training program in Newark, inner city 
Newark. And these were women, almost entirely minority, who had 
been practical nurses, and they were in a training program to 
become registered nurses. And this is automatic; you go from 
$25,000 a year to $45,000 or $50,000. It just happens--you 
know, there is no magic bullet. It is once they get the skills, 
whether it is the Affordable Care Act or whatever, there are 
jobs. So this is automatic.
    And there were about 150 women in the room. And I said, 
``What is the biggest problem that you have?'' And one of them 
got up and said, ``Well, the man in my life just doesn't make 
it easy for me. One day I went home, all my furniture was in 
the street, and he had set fire to it.''
    Now, I said to myself, this is crazy. I am sure, I said, 
``How many other women have a problem like that?'' Three hands. 
I said, ``You mean exactly like that?'' They said, ``Yes.''
    Now, we have MDRC research from New York City when they did 
their program of job training and support for inner city women 
who wanted, volunteered, to go through job training and find a 
job. And what they found that was one of the major reasons why 
those women didn't make it is because the men in their lives 
did not support the idea of them becoming independent.
    So some part of this, some part of this is about family 
relations. We may call it family violence. We may call it the 
broken family. But a part of this is getting these young--I am 
feeling this age issue--getting these young people to do it 
right.
    Chairman REICHERT. Thank you.
    Mr. LEWIS. Thank you, Mr. Chairman.
    Chairman REICHERT. Thank you, Mr. Lewis.
    Mr. Young, you are recognized for 5 minutes.
    Mr. YOUNG. Thank you, Mr. Chairman, and Ranking Member, as 
well.
    This is an important conversation. This really does fit 
into the larger picture of how we address poverty in this 
country. So I am glad that Mr. Lewis brought that up.
    This is such a multifaceted challenge. Of course, the 
program 
we are here to discuss today plays a very important role in 
that puzzle. The weakness of the family. I have to say, before 
I get into the immediate concern of this hearing, I think if we 
could get the economy to grow a little faster, we would 
alleviate so much. I saw all heads nodding affirmatively on our 
panel when I said that. It would create more wherewithal so 
that we could fund these important programs, provide more hope 
and opportunity for people that--perhaps incentivize them to, 
if they are not already searching for work, to go out and 
search more actively, and just restore some hope and dignity 
and prosperity in this country. Because we know those on the 
margins of society who benefit from many of these important 
programs are most adversely hurt during a down economy. So 
reforming the Tax Code, the regulatory code and so on are 
things that we really need to do.
    With that said, I know we are here today to discuss the 
implications of HHS' unilateral decision to waive work 
requirements from the TANF program. At a time when national 
poverty rates and welfare spending are very high, at least 
compared to recent history, Congress needs to ensure that those 
who need help are receiving TANF in a manner that provides a 
path to self-sufficiency, which includes ensuring that the job 
training programs that are out there are effective. But we must 
not waive requirements that have led to more jobs and earnings 
and also reduced poverty and welfare dependence. On that, I 
hope all of us can agree.
    Now, before the 1996 Federal Welfare Law was signed into 
law by President Clinton, my home State of Indiana, under a 
Democrat Governor, Evan Bayh, created work requirements for 
Hoosiers who received welfare benefits. This ensured Hoosiers 
who were receiving benefits really got the benefits they 
needed. But we targeted this program toward those who needed 
the benefits most.
    As former Governor Bayh later said, the bottom line was 
trying to make someone self-sufficient. We were trying to 
achieve two values: One was the notion of community, and also 
responsibility. So this is exactly, in my estimation, what the 
1996 Federal Welfare Reform Law did, and is exactly what the 
Obama Administration is undermining through this unilateral 
decision by HHS.
    So if HHS now claims they have the authority to waive work 
requirements, I am curious, and I will direct this question to 
Ms. Brown, I know GAO hasn't conducted a legal analysis about 
the authority to grant these waivers unilaterally, but did you 
indicate that you have reviewed documentation showing that 
there is no evidence the Administration has believed it had the 
authority in the past? So does this set us up on a sort of 
slippery slope here? What conceivably could HHS claim they 
could waive within the TANF program in the future?
    Ms. BROWN. I am quite sure that our General Counsel will 
advise me that I have to be very careful with this question. I 
think----
    Mr. YOUNG. Please don't. Just be candid and forthright.
    Ms. BROWN. I think the issue is that what we saw when we 
looked at the records was a number of requests that States have 
made that were not necessarily grand redesigns. And during that 
process, HHS said, again and again, different people, different 
levels, we don't have that authority, we don't have that 
authority.
    And then, as the President issued a memorandum telling 
Federal agencies to talk to States and locals about how to 
remove some of the burdens so that programs could work more 
effectively, they were hearing from States that they would like 
waivers. And HHS said they were beginning to think about 
whether--they were revisiting whether they had waiver 
authority. That is as much as I know.
    Mr. YOUNG. That was a very carefully constructed response. 
But much appreciated. And I thank you very much for your 
testimony.
    I yield back.
    Chairman REICHERT. Thank you.
    Mr. Griffin, you are recognized.
    Mr. GRIFFIN. Thank you, Mr. Chairman.
    Thank you for holding this hearing.
    Mr. Besharov, I want to ask you, you talked about--Mr. 
Young was talking about the theory upon which the change was 
made. I want to know why it was made. Why would we take away 
the requirement that some sort of work--we have heard a lot 
about traditional work here. But I think that is a 
mischaracterization. I am looking at all the different 
combinations that one can engage in to fulfill the work 
requirement. There are all sorts of different things. And it 
seems to me the point of this is to get people engaged in 
productive work-related, work-type activities; not traditional 
work, necessarily. But why would the Administration do this?
    Mr. BESHAROV. Well, let me just quickly follow up on what 
Ms. Brown said.
    The authority the Administration is using to justify the 
waivers is quite a big gun. It is saying we have the authority 
to modify what you, the States, have to report to us; 
therefore, we can waive any portion of TANF. It is not just 
this portion, based on that.
    I have a feeling if the shoe was on the other foot, which 
is to say, if this were a Democratic House and a Republican 
Congress, we would have the same debate, only with different 
faces on the argument. This is a major expansion of executive 
authority if it is legal. If it is legal, it is because of 
quite a loophole; it is the teeniest little loophole that they 
are driving a truck through.
    You asked the question, though, why might they want to do 
it? And it is because of the argument you are seeing here, 
which is, some people read the history and the current 
situation to mean the best way to get people into a productive 
job is for them to get into a productive job and increase their 
earnings and experience. Other people think the best way to do 
it is through education and training first. That is a big 
argument. It was not quite settled in 1996. But for a while, 
the work-first people had it; they were going with it. The 
people who are on the losing end of that argument are, in large 
measure, in the Administration. So they get now, as the 
President says, I won the election. So they are revisiting this 
argument about work-first versus job training. I think that is 
what it comes down to. I think they are wrong, but I think 
they--it is a longstanding argument.
    One is never--I was trained as a lawyer--one is never 
supposed to ask a witness a question you don't know the answer 
to. But I believe, Jason, I believe it is the case that before 
you became Commissioner in New York, one half--one half of the 
women at City College were on welfare.
    Mr. TURNER. Yes, that is actually true. And beyond that, 
Mr. Besharov, they didn't graduate.
    Mr. GRIFFIN. We will save time for you to ask him 
questions.
    Mr. BESHAROV. Sorry. I apologize.
    Mr. GRIFFIN. My time is up.
    It looks to me like education is a big part of combinations 
that I am looking at. For those of us who have spent a lot of 
time getting an education and had spent a lot of time working, 
I think we can do a good job assessing which is the best 
preparation for life. But, correct me if I am wrong, and I know 
that there was some sensitivity to getting into this by Ms. 
Brown, but the Administration was--they were opposed to, 
legally opposed to changing this before they were in favor of 
it. Is that fair? Could you speak to that? If she can't, can 
you?
    Mr. BESHAROV. I think this was a new interpretation that 
reversed the opinion that HHS had for many years. It is clearly 
a new interpretation. And it gives them authority that many 
people, including HHS, didn't know it had before.
    Mr. GRIFFIN. Thank you, Mr. Besharov.
    Looks like I am out of time.
    Chairman REICHERT. Thank you, Mr. Griffin.
    Thank you all for your testimony today. I also want to 
thank the Members for being here at this important hearing. We 
have lots of work to do. Hopefully, we can come to an agreement 
so we can help those people out in our Nation who really need 
our help.
    A reminder to all Members, if you have additional questions 
for the witnesses, they will be submitted in writing, please. 
And we would appreciate receiving your responses when you get 
their questions in writing for the record within 2 weeks.
    We now adjourn the meeting, thank you.
    [Whereupon, at 10:30 a.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   


                                 [all]
</pre></body></html>
